                   AUDIT REPORT

        Audit of NRC‟s Protection of Safeguards Information

                     OIG-12-A-12       April 16, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC‟s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  April 16, 2012




MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S PROTECTION OF SAFEGUARDS
                            INFORMATION (OIG-12-A-12)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Protection of Safeguards Information.

The report presents the results of the subject audit. Agency comments provided at the
March 28, 2012, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Audit
Team, at 415-5911.

Attachment: As stated
                                            Audit of NRC‟s Protection of Safeguards Information



EXECUTIVE SUMMARY

   BACKGROUND

        Safeguards Information, or SGI, is a category of sensitive unclassified
        information that is unique to the Nuclear Regulatory Commission (NRC).
        SGI is detailed security-related information that identifies security
        measures for the physical protection of special nuclear material, or
        security measures for the physical protection and location of certain plant
        equipment vital to the safety of production or utilization facilities.
        Unauthorized disclosure of SGI could have a significant adverse effect on
        public health and safety and/or the common defense and security by
        significantly increasing the likelihood of theft, diversion, or sabotage of
        materials or facilities subject to NRC jurisdiction. Such an unauthorized
        release could result in damage to the Nation‟s critical infrastructure, which
        includes nuclear power plants and certain other facilities and radioactive
        materials licensed and regulated by the NRC.

        Access to SGI is restricted to personnel who have an established „„need-
        to-know‟‟ the information and are also deemed “trustworthy and reliable”
        by undergoing a background check and a Federal Bureau of Investigation
        criminal history records check. A security clearance is not needed to
        access SGI. While most people who consistently deal with SGI are NRC
        employees or licensees, access to SGI is not contingent upon one‟s
        relationship with NRC. For example, contractors, consultants, private
        citizens who participate in adjudicatory hearings, and qualified private
        citizens who choose to comment on certain regulatory guides can gain
        access to SGI if they meet the regulatory requirements stated above.

        Hardcopy and electronic documents containing SGI must be protected in
        accordance with NRC regulations and guidance. When in use, documents
        containing SGI must always be under the direct control of the authorized
        user of the information. These documents must be protected to avoid
        disclosing the information to unauthorized persons. Within NRC, this
        means that hardcopy SGI documents are stored in locked security
        containers, while electronic copies are stored in the Safeguards Local
        Area Network and Electronic Safe (SLES). SLES is NRC‟s electronic
        document management system for the storage of electronic SGI
        documents.




                                       i
                                         Audit of NRC‟s Protection of Safeguards Information



      NRC has given a select group of individuals within the agency the
      authority to review security documents to determine whether the items
      contain SGI and therefore warrant protection. These individuals are
      referred to as SGI designators, and the majority of offices have at least
      one designator. The SGI designator role is a collateral duty and
      employees must fulfill training requirements to become certified to perform
      the role. Only individuals who have been certified as SGI designators can
      make SGI determinations.


OBJECTIVE


      The audit objective was to determine if NRC adequately ensures the
      protection of SGI.

      This audit was conducted to follow up on an audit issued in January 2004,
      OIG-04-A-04, Audit of NRC’s Protection of Safeguards Information. The
      2004 audit found that the benefit of having an SGI program was unclear
      and that NRC lacked a central authority for controlling, coordinating, and
      communicating SGI program requirements. The audit also found
      examples in which NRC and licensee representatives inappropriately
      released SGI to unauthorized individuals.

RESULTS IN BRIEF

      Since the 2004 audit, NRC has made improvements to the SGI program,
      including the development of a Management Directive specifically for SGI
      and identification of a lead program office for developing SGI policies and
      procedures. However, the Office of the Inspector General identified the
      following areas for further improvement of the SGI program: NRC (1) lacks
      a structured process for tracking SGI releases, (2) lacks guidance on
      granting “outsiders” access to SGI, and (3) has inadequate business
      processes over the SGI designator role.

RECOMMENDATIONS

      This report makes recommendations to improve the agency‟s SGI
      program. A list of these recommendations appears on page 20 of this
      report.




                                    ii
                                        Audit of NRC‟s Protection of Safeguards Information



AGENCY COMMENTS

     At an exit conference on March 28, 2012, agency management stated
     their general agreement with the findings and recommendations in this
     report. Agency management also provided supplemental information that
     has been incorporated into this report, as appropriate. As a result, the
     agency opted not to provide formal comments for inclusion in this report.




                                  iii
                                      Audit of NRC‟s Protection of Safeguards Information



ABBREVIATIONS AND ACRONYMS

       ADM     Office of Administration

       CFR     Code of Federal Regulations

       CSO     Computer Security Office

       DFS     Division of Facilities and Security

       DSO     Division of Security Operations

       IT      Information Technology

       MD      Management Directive

       NRC     U.S. Nuclear Regulatory Commission

       NSIR    Office of Nuclear Security and Incident Response

       OEDO    Office of the Executive Director for Operations

       OIG     Office of the Inspector General

       OIS     Office of Information Services

       SGI     Safeguards Information

       SLES    Safeguards Local Area Network and Electronic Safe




                                iv
                                                              Audit of NRC‟s Protection of Safeguards Information



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ..................................................................................... i

        ABBREVIATIONS AND ACRONYMS ................................................................. iv

        I.       BACKGROUND........................................................................................ 1

        II.      OBJECTIVE ............................................................................................. 5

        III.     FINDINGS ................................................................................................ 6

                 A. Lack of a Structured Process for Tracking SGI Releases ................... 7

                 B. No Guidance for Granting “Outsiders” Access to SGI. ...................... 13

                 C. Inadequate Business Processes Over the SGI Designator Role. ...... 16

        IV.      CONSOLIDATED LIST OF RECOMMENDATIONS ............................... 20

        V.       AGENCY COMMENTS .......................................................................... 21



        APPENDIX

                 OBJECTIVE, SCOPE, AND METHODOLOGY ....................................... 22




                                                     v
                                                          Audit of NRC‟s Protection of Safeguards Information




I.      BACKGROUND

                Safeguards Information, or SGI, is a category of sensitive unclassified
                information1 that is unique to the Nuclear Regulatory Commission (NRC).
                SGI is detailed security-related information that identifies security
                measures for the physical protection of special nuclear material,2 or
                security measures for the physical protection and location of certain plant
                equipment vital to the safety of production or utilization facilities.
                Unauthorized disclosure of SGI could have a significant adverse effect on
                public health and safety and/or the common defense and security by
                significantly increasing the likelihood of theft, diversion, or sabotage of
                materials or facilities subject to NRC jurisdiction. Such an unauthorized
                release could result in damage to the Nation‟s critical infrastructure, which
                includes nuclear power plants and certain other facilities and radioactive
                materials licensed and regulated by the NRC.

                Access to SGI is restricted to personnel who have an established „„need-
                to-know‟‟3 the information and are also deemed “trustworthy and reliable”4
                by undergoing a background check and a Federal Bureau of Investigation
                criminal history records check.5 Additionally, a security clearance is not
                needed to access SGI. While most people who consistently deal with SGI
                are NRC employees or licensees, access to SGI is not contingent upon
                one‟s relationship with NRC. For example, contractors, consultants,
                private citizens that participate in adjudicatory hearings, and qualified
                private citizens that choose to comment on certain regulatory guides can
                gain access to SGI if they meet the regulatory requirements stated above.

1
  Other categories of sensitive unclassified information include proprietary information, allegation
information, and personally identifiable information.
2
  "Special nuclear material" is defined by the Atomic Energy Act of 1954, as amended, as plutonium,
uranium-233, or uranium enriched in the isotopes uranium-233 or uranium-235.
3
  Per Title 10, Code of Federal Regulations, Section 73.2 (10 CFR 73.2), “need-to-know” means a
determination by a person having responsibility for protecting SGI that a proposed recipient‟s access to
SGI is necessary in the performance of official, contractual, licensee, applicant, or certificate holder
employment.
4
  Per 10 CFR 73.2, trustworthiness and reliability are characteristics of an individual considered
dependable in judgment, character, and performance, such that disclosure of SGI to that individual does
not constitute an unreasonable risk to the public health and safety or common defense and security. A
determination of trustworthiness and reliability for this purpose is based upon a background check.
5
  Per 10 CFR 73.59, certain individuals do not need background checks prior to receiving access to SGI,
such as (a) an employee of the Commission or the Executive Branch of the U.S. Government who has
undergone fingerprinting for a prior U.S. Government criminal history records check; (b) a member of
Congress; (c) the Governor of a State or his or her designated State employee representative; and (d)
Federal, State, or local law enforcement personnel, among others.


                                                    1
                                                        Audit of NRC‟s Protection of Safeguards Information




               Hardcopy and electronic documents containing SGI must be protected in
               accordance with NRC regulations and guidance.6 When in use,
               documents containing SGI must always be under the direct control of the
               authorized user of the information. These documents must be protected
               to avoid disclosing the information to unauthorized persons. Within NRC,
               this means that hardcopy SGI documents are stored in locked security
               containers, while electronic copies are stored in the Safeguards Local
               Area Network and Electronic Safe (SLES). SLES is NRC‟s electronic
               document management system for the storage of electronic SGI
               documents.

               NRC has given a select group of individuals within the agency the
               authority to review security documents to determine whether the items
               contain SGI and therefore warrant protection. These individuals are
               referred to as SGI designators, and the majority of offices have at least
               one designator. The SGI designator role is a collateral duty and
               employees must fulfill training requirements to become certified to perform
               the role.

               Only individuals who have been certified as SGI designators can make
               SGI determinations. Management Directive (MD) 12.7 outlines the
               requirements that an individual must follow to be granted this certification.
               Specifically, there is a series of training modules that the individual must
               complete that covers specific SGI designator training. Once this training is
               completed, the employee sends his/her training certificates to the Office of
               Nuclear Security and Incident Response (NSIR) for review. An NSIR
               official places the individual on the certified designator list.

               In addition to paper documents, individuals work with electronic SGI within
               SLES. To gain SLES access, a user must complete an application form
               and submit it to the Office of Information Services (OIS). There are two
               levels of access that a user can obtain: viewer and designator. The
               viewer role allows users only to view documents that they have been
               granted permission to see. The designator role has the same features as
               the viewer role, but also allows the user to generate SGI documents within
               the system. To be granted the SLES designator access level, the user

6
 All media containing SGI, such as laptop computers or removable magnetic media (e.g., hard drives or
compact disks), fall under the same regulations and guidance as hardcopy and electronic documents and
must be protected accordingly.


                                                  2
                                                          Audit of NRC‟s Protection of Safeguards Information



                must be a certified SGI designator and must submit the required training
                documentation to OIS.

                Regulations and Orders

                The Atomic Energy Act of 1954, as amended, provides NRC the authority
                to prescribe regulations to protect SGI. This Federal law also states the
                requirements for the criminal history records check in order to access SGI.
                The Code of Federal Regulations (Title 10, Part 73) establishes the
                general licensee performance requirements to protect SGI.

                NRC has seven management directives that provide guidance to staff
                concerning the protection of information, including SGI:

                1. MD 12.7 – NRC Safeguards Information Security Program, provides
                   information security policy associated with the preparation, handling,
                   distribution, accountability, and protection of SGI.
                2. MD 12.6 – NRC Sensitive Unclassified Information Security Program,
                   provides measures to ensure that sensitive unclassified information is
                   handled appropriately and is protected from unauthorized disclosure.
                3. MD 12.5 – NRC Automated Information Security Program, provides
                   security measures to protect NRC information and information
                   systems, including any hardware or software that is used to process,
                   store, or transmit SGI.
                4. MD 12.2 – NRC Classified Information Security Program, provides the
                   proper procedures for all NRC personnel responsible for handling
                   classified information.7
                5. MD 12.1 – NRC Facility Security Program, provides measures to
                   ensure that SGI and classified information is protected from
                   unauthorized disclosure and that assets in NRC facilities are protected
                   from harm, loss, or misuse.
                6. MD 7.4 – Reporting Suspected Wrongdoing and Processing OIG
                   Referrals, provides direction and guidance for reporting suspected
                   wrongdoing to the Office of the Inspector General (OIG).
                7. MD 3.4 – Release of Information to the Public, provides NRC staff
                   general policy guidance on the release of agency information to the
                   public.


7
 While MD 12.2 focuses on classified information, there is a correlation with SGI as the SGI program is
modeled after the classified program according to NRC management.


                                                    3
                                   Audit of NRC‟s Protection of Safeguards Information



Offices Involved

The primary NRC offices involved with the SGI program are NSIR, OIS,
the Office of Administration (ADM), and the Computer Security Office
(CSO).

NSIR‟s Division of Security Operations (DSO) is the SGI program owner
and is responsible for developing and overseeing the implementation of
NRC requirements and activities related to safeguards and security for
NRC licensed facilities and activities. DSO is responsible for ensuring the
protection of SGI and classified information at NRC facilities and by NRC
contractors and licensees by planning, coordinating, and managing the
information security program. DSO runs the SGI training program for
NRC employees and administers NRC's SGI designator program.

OIS is responsible for providing expertise on NRC‟s information
technology (IT) infrastructure, including security monitoring, assessment,
incident response, and integration of automated solutions to proactively
mitigate IT security vulnerabilities. OIS plans, develops, and delivers
programs and services related to the storage, retrieval, protection, and
preservation of NRC information in paper and electronic media.
Regarding SGI, OIS owns and supports the infrastructure that SLES runs
on and is responsible for granting appropriate user access.

Within ADM, the Division of Facilities and Security (DFS) establishes
policy and plans and directs the agency's building management and
facilities and personnel security programs. DFS administers the NRC
security program for physical security and is responsible for physically
protecting NRC facilities, ensuring the safeguarding of classified and
sensitive unclassified information at NRC and NRC contractor facilities,
and coordinating with other law enforcement agencies on related matters.

CSO, specifically the Cyber Situational Awareness, Analysis, and
Response Team, is in charge of tracking, monitoring, and reporting NRC
computer security incidents. CSO monitors NRC's IT security
vulnerabilities, maintaining an awareness of the threat to NRC's IT
infrastructure. This office conducts trend analysis of events and
recommends actions to minimize or prevent releases of information. CSO
handles electronic releases and NRC internal SGI policy that involves IT
systems.



                              4
                                                          Audit of NRC‟s Protection of Safeguards Information



                Unauthorized Releases of SGI

                An SGI “release” is any situation where SGI information has been
                inadequately protected.8 In the worst case scenario, a release results in
                an unauthorized individual seeing the sensitive information. However,
                there are many instances when that release does not result in any
                unauthorized access. For example, a document owner may leave SGI on
                his/her desk before realizing it later, or an NRC employee may not take
                the proper security steps when emailing an SGI document to another
                authorized user. Based on the scenario and type of release, the MDs
                require that all NRC employees report SGI releases to specific NRC
                offices. While the specific reporting offices are mentioned in the MDs,
                there are no clearly quantifiable timeliness requirements for reporting SGI
                releases.



II.     OBJECTIVE

                The audit objective was to determine if NRC adequately ensures the
                protection of SGI. The report appendix provides information on the audit
                scope and methodology.

                This audit was conducted to follow up on an audit issued in January 2004,
                OIG-04-A-04, Audit of NRC’s Protection of Safeguards Information. The
                2004 audit found that the benefit of having an SGI program was unclear
                and that NRC lacked a central authority for controlling, coordinating, and
                communicating SGI program requirements. The audit also found
                examples in which NRC and licensee representatives inappropriately
                released SGI to unauthorized individuals.




8
  Any “release” that is reported to DFS is also called an infraction as part of NRC‟s Security Infraction
Program. A security infraction is a failure to comply with NRC security requirements or procedures. This
infraction category includes many types of issues, including actual or suspected compromises of SGI,
failure to properly escort uncleared visitors, or loss of a badge under circumstances of negligence.


                                                    5
                                                Audit of NRC‟s Protection of Safeguards Information



III.   FINDINGS

Since the 2004 audit, NRC has made improvements to the SGI program, including the
development of a management directive specifically for SGI and identification of a lead
program office for developing SGI policies and procedures. However, OIG identified the
following areas for further improvement of the SGI program: NRC (1) lacks a structured
process for tracking SGI releases, (2) lacks guidance on granting “outsiders” access to
SGI, and (3) has inadequate business processes over the SGI designator role.




                                           6
                                        Audit of NRC‟s Protection of Safeguards Information



A.   Lack of a Structured Process for Tracking SGI Releases

     While SGI releases are reported to NRC offices identified to record and
     respond to such incidents, the total universe of SGI releases is not known
     to NRC management. The universe of SGI releases is unknown because
     NRC does not have a structured, streamlined process for reporting and
     tracking releases. Without a full understanding of the universe of
     releases, NRC cannot trend releases to see if there is a systemic problem
     that could be resolved from additional guidance, or if clarifications to
     existing guidance need to be made.

     Reporting Requirements

     NRC managers involved with the SGI program should have access to
     complete information about SGI releases in a timely manner to respond to
     problems and improve the overall SGI program. NRC MDs provide
     guidance to employees on how to report problems concerning SGI. MD
     12.7 is the overarching guidance document for SGI; however, several
     other MDs address the handling of various SGI releases. For example,
     MD 12.5 discusses computer-related issues with SGI, while MD 3.4
     discusses all releases of information to the public.

     Universe of SGI Releases Is Unknown

     While SGI releases are reported to NRC offices assigned to record and
     respond to such incidents, the total universe of SGI releases is not known
     to NRC management. Based on the guidance provided in the MDs,
     employees report their SGI releases to one or more of the following five
     NRC offices: CSO, NSIR/DSO, ADM/DFS, Office of the Executive Director
     for Operations (OEDO), and OIG. Four of these offices maintain their own
     file system to keep track of the releases reported. For example,
     ADM/DFS maintains a spreadsheet that has the date the release
     occurred, the date it was reported, the offices and individuals involved,
     and a description of the release, while OEDO maintains a file folder
     containing the notifications the office has received. CSO and OIG also
     maintain some records; however, NSIR/DSO does not maintain any files
     for tracking SGI releases.




                                   7
                                                           Audit of NRC‟s Protection of Safeguards Information



                OIG performed an analysis to identify the total universe of SGI releases
                that were reported to CSO, ADM/DFS, OEDO, and OIG between March
                11, 2005, and October 4, 2011.9 During this timeframe, a total of 95
                unique releases were reported to and recorded by the respective offices.
                Of these 95 releases reported, 91 were reported to only one office (see
                Table 1). Additionally, OIG identified four releases that were
                simultaneously reported to two offices (see Table 2). There were no
                releases reported to more than two offices. Tables 1 and 2 below show a
                breakdown of the number of reported cases and to which office they were
                reported.

                                 Table 1. Single Reported Releases
            Source            Total 2005 2006 2007 2008 2009 2010 2011
            CSO                  31          6   7     5   5     2   6
            ADM/DFS              51                   15  15    11  10
            OEDO                   5    3                        1   1
            OIG                    4         1   1     2


            Issues                91         3         7       8       22       20        14        17
            Reported to
            One Office


                               Table 2. Dual Reported Releases
            Source            01/03/2008 10/19/2010 02/02/2011 09/27/2011
            CSO                         1                               1
            ADM/DFS                     1          1           1
            OEDO                                   1                    1
            OIG                                                1
            Issues                      1          1           1        1
            Reported to
            Two Offices


                OIG also analyzed the length of time taken for releases to be reported. Of
                the 95 infractions reported between March 11, 2005, and October 4, 2011,
                56 (59 percent) were reported on the same day that the release occurred,
                15 (16 percent) were reported between 1 and 5 days, 14 (15 percent)

9
 The purpose of OIG‟s analysis was to identify the universe of reported releases and not to assess
whether releases were reported to the proper entity.


                                                   8
                                                            Audit of NRC‟s Protection of Safeguards Information



                were reported between 6 and 30 days, 2 (2 percent) were reported
                between 31 and 60 days, 4 (4 percent) were reported between 61 and 100
                days, and 4 (4 percent) took longer than 100 days to report. The following
                chart provides a breakdown of the timeliness of the releases reported:

                             Table 3. Release Report Days
                  Days Between      # of       Percentage of Releases
                  SGI Release and Infractions Reported In Each Time
                  Reporting         Reported   Period
                  0                 56         59%
                  1–5               15         16%
                  6 – 30            14         15%
                  31 – 60           2          2%
                  61 – 100          4          4%
                  >100              4          4%
                  Totals            95         100%
                   * Percentage rounded to whole percentage point

                Lack of a Structured Process for Reporting

                NRC management does not know the universe of SGI releases because
                the agency lacks a structured, streamlined process for reporting and
                tracking releases. NRC has several MDs that explain and outline how
                various releases should be reported, but these directives contain different
                reporting requirements and there is no requirement for any single entity to
                keep track of all the reporting that occurs. MD 3.4, Release of Information
                to the Public, states that the OEDO and OIG should be notified of any
                release, in writing. Additionally, it states that NSIR must be contacted, but
                it does not state if this notification needs to be in writing. It further states
                the CSO should be contacted if the release involved IT systems. MD 7.4,
                Reporting Suspected Wrongdoing and Processing OIG Referrals, states
                that OIG should be notified if there is a willful violation with SGI. MD 12.1,
                NRC Facility Security Program, states that DFS should be notified, in
                writing, of any infractions and violations. MD 12.5, NRC Automated
                Information Security Program, states that CSO should be notified with any
                release related to computers.10 MD 12.7, NRC Safeguards Information

10
   MD 12.5 identifies NRC‟s Office of the Chief Information Officer as having the responsibility to respond
to incidents involving NRC systems that are processing sensitive information, SGI, and classified
information. However, in October 2007, CSO was created and the Cyber Situational Awareness,
Analysis, and Response Team was tasked with the responsibilities outlined in MD 12.5 for responding to
computer security incidents, including SGI releases.


                                                     9
                                                Audit of NRC‟s Protection of Safeguards Information



Security Program, states that DFS, NSIR/DSO, OEDO, and OIG should
be notified of any release involving SGI. While MD 12.2, NRC Classified
Information Security Program, provides guidance for the protection of
classified information, it does not provide any information on how to report
releases related to SGI.

To add to the confusion, MD 12.7 incorrectly restates the reporting
requirements listed in MD 3.4 when dealing with SGI releases to the
public. MD 12.7 states that when reporting any inadvertent SGI release,
DFS, DSO, OEDO, and OIG should be contacted. However, in MD 3.4,
DFS is not listed as an office that should be contacted. The following
chart is a breakdown of the MDs and the offices that are required to be
notified for the various types of SGI releases:

            Table 4. MD Reporting Requirements
MD                           Office
          ADM/DFS NSIR/DSO OEDO OIG                                   CSO
3.4                 x*         x        x                             x
7.4                                     x
12.1      x
12.5                                                                  x
12.7      x               x                 x            x
* Note: MD 3.4 states that NSIR must be notified but does not specify which office within NSIR
(e.g., DSO) should be contacted.


While a DSO official stated that they have tried to model the SGI program
after the classified information program, this is not the case when it comes
to reporting SGI releases. According to MD 12.2, NRC Classified
Information Security Program, there is a single point of contact
responsible for receiving all releases related to classified information.
However, within the SGI program there is no single point of contact
responsible for intake of all of SGI releases. For example, in some cases,
NRC senior managers will report the SGI releases to other senior
managers in the responsible program offices, but this information is not
necessarily reported in a timely manner to the staff responsible for
tracking releases. Nevertheless, OIG observed that CSO employs a “best
practice” for managing the intake of SGI releases. CSO maintains a
tracking system with unique identifier numbers for each release and
assigns two points of contact who rotate coverage to ensure someone is
always available to receive the reported releases.



                                       10
                                   Audit of NRC‟s Protection of Safeguards Information



Another problem was NRC‟s mandatory annual online information security
training. While this training program conveys to employees what to do if
they come across unprotected classified information, it does not provide
any information on who to contact or what to do if there is an SGI release.

Compounding the non-streamlined approach to reporting and tracking SGI
issues is a lack of communication among the offices involved with SGI.
For example, while NSIR is responsible for developing policies related to
SGI and DFS is responsible for enforcing these policies, the two offices do
not share details on the releases identified. Furthermore, none of the
offices that track SGI issues perform trending on the information or
provide statistics to other involved offices unless another office requests
this information. OIG also identified several instances where the offices
involved with SGI did not know who to contact in the other offices to share
or obtain information.

No Trending To Facilitate Improvements in SGI Program

Without a full understanding of the universe of releases, NRC cannot trend
releases to see if there is a systemic problem that could be resolved from
additional guidance, or if clarifications to existing guidance are needed.
Furthermore, if trending on SGI releases were performed, NSIR could
make changes to the annual training to ensure that sufficient guidance is
provided on SGI problem areas.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Develop a structured reporting process that includes:
     One point of contact to receive reports of all SGI releases.
     A numbering system to track the number of releases reported in a
     consistent manner.
     A system to report information on releases from the central point of
     contact to the responsible program offices.
     A system to trend releases and to make any needed programmatic
     changes.




                             11
                                    Audit of NRC‟s Protection of Safeguards Information



2. Update the affected MDs (3.4, 7.4, 12.1, 12.5, and 12.7) to provide
   consistent guidance on the new reporting structure outlined in
   recommendation 1.

3. Develop and implement interim guidance to communicate the
   structured reporting process to NRC staff.

4. Update the annual online security information training to reflect the
   reporting requirements for SGI releases.




                              12
                                         Audit of NRC‟s Protection of Safeguards Information



B.   No Guidance for Granting “Outsiders” Access to SGI

     While MD 12.7 provides details on many aspects of protecting SGI, it
     lacks guidance on how to grant SGI access to a non-NRC, non-licensee
     entity. MD 12.7 lacks information about approving SGI access to
     outsiders because NSIR, which is responsible for the content of MD 12.7,
     believes that the existing guidance is sufficient. Without comprehensive
     guidance, there is no assurance that consistent measures are being taken
     to protect SGI.

     SGI Policy and Guidance

     It is NRC‟s policy to ensure that SGI is properly handled and protected
     from unauthorized disclosure under pertinent laws, regulations,
     management directives, and applicable directives of other Federal
     agencies and organizations. Specifically, MD 12.7, NRC Safeguards
     Information Security Program, provides NRC staff the security
     requirements for the preparation, handling, distribution, accountability, and
     protection of SGI. Regarding SGI access, MD 12.7 explains the eligibility
     requirements to receive SGI, as well as those who are exempt from the
     specific requirements. According to MD 12.7, NRC employees,
     consultants, and contractors are all responsible for ensuring that the
     procedures specified in the document are followed to protect SGI.

     In accordance with the regulations, MD 12.7 states that to access SGI, an
     individual must have a need-to-know the information and is subject to a
     fingerprinting and FBI criminal history records check. The responsibility of
     assessing the need-to-know of an individual falls on the owner of the
     requested SGI document (e.g., the NRC employee who created the
     document or the individual in possession of the document) per the
     regulation, 10 CFR Part 73.

     Office of Management and Budget Bulletin, M-07-07, “Final Bulletin for
     Agency Good Guidance Practices,” issued in January 2007, provides
     guidance on the development of policies and procedures within
     Government agencies. The bulletin explains that well-designed guidance
     documents serve many important or even critical functions in regulatory
     programs. Agencies can provide helpful guidance to interpret existing law
     through an interpretive rule or to clarify how they tentatively will treat or
     enforce a governing legal norm through a policy statement.


                                   13
                                                                Audit of NRC‟s Protection of Safeguards Information



                   Lack of Guidance on Granting Access to “Others”

                   While MD 12.7 provides details on various aspects of protecting SGI, it
                   does not communicate a methodology for document owners to use when
                   making determinations to grant non-NRC, non-licensees access to SGI.
                   These individuals, or “outsiders,”11 may be interveners, vendors, external
                   stakeholders, or members of the general public.

                   As an example of the need for better guidance in this area, in May 2011,
                   an outsider sought to provide comments on a proposed NRC technical
                   document and asked for permission to view some SGI material that
                   provided support to NRC‟s technical basis. The document owner, an NRC
                   employee with an extensive security background, was unaware of the
                   proper steps or procedures to grant this access. The NRC employee
                   could not locate any NRC guidance that detailed the steps of providing
                   SGI access to outsiders. Consequently, the employee contacted Office of
                   the General Counsel and NSIR management to develop a plan that would
                   potentially allow the outsider to access SGI.

                   The NRC employee took additional steps to add a layer of security by
                   asking the outsider to sign a confidentiality agreement, and required the
                   outsider to view the SGI at NRC headquarters only. The steps taken were
                   not listed in any NRC guidance documentation. Accordingly, the
                   document owner expressed frustration because the lack of guidance
                   made the employee feel “on her own” in dealing with this type of situation.

                   Developing Guidance Not Identified as a Need

                   MD 12.7 lacks information about approving SGI access to outsiders
                   because NSIR, the owner of MD 12.7, believes that the existing guidance
                   is sufficient. NSIR staff stated that everyone who accesses SGI is subject
                   to the regulation; however, the regulation, like MD 12.7, does not describe
                   a process for granting SGI to outsiders. Rather, regarding SGI access,
                   only the owner responsibility requirement of determining the need-to-know
                   was addressed. Furthermore, when NSIR staff were asked to describe
                   the steps of granting SGI access to outsiders, they could not do so except
                   to say that the regulation must be followed. NSIR confirmed that there
                   were no additional requirements or a separate policy for granting outsiders
                   SGI access, but claimed it was not a necessity as the regulations were

11
     The term “outsiders” is not an industry term and is being used strictly for the purpose of this audit.


                                                        14
                                    Audit of NRC‟s Protection of Safeguards Information



clear enough, and NRC staff could obtain assistance directly from NSIR if
needed.

One NSIR staff member claimed a confidentiality agreement must be
signed when granting outsiders SGI access. However, there are no
statutory or regulatory requirements that state the need to use a
confidentiality agreement.

No Assurance that Consistent Measures Are Applied To Protect SGI

Without comprehensive guidance, there is no assurance that measures
are consistently being applied to protect SGI. There are no clear
instructions on how to grant SGI access to outsiders. If the discretion is
left solely to each individual document owner, there could be a disparity on
the controls used to protect SGI. Document owners may have varying
levels of security knowledge and could take different approaches in
determining what is sufficient to distribute SGI. This potentially could lead
to a security compromise as SGI could be viewed by an ineligible
individual or simply handled improperly by an approved outsider.

While the particular example described above did not present any
additional known problems, this can be largely attributed to the document
owner‟s extensive security experience and self-admitted propensity for
being extremely conscientious. However, this type of situation could very
well pose problems for other NRC staff in the future.

Recommendations

OIG recommends that the Executive Director for Operations:

5. Update MD 12.7 to include detailed guidance on granting “outsiders”
   access to SGI.

6. Develop and issue interim guidance covering how to grant “outsiders”
   access to SGI.




                              15
                                         Audit of NRC‟s Protection of Safeguards Information



C.   Inadequate Business Processes Over the SGI Designator Role

     NRC does not have accurate and complete records on the universe of SGI
     designators because NRC lacks adequate business processes over the
     SLES SGI designator role and certified SGI designator list. A lack of
     accurate SGI designator lists could prevent NRC from communicating
     policy or procedural changes to those who have this responsibility and
     ensuring there is adequate SGI designator coverage throughout the
     program offices.

     Structured and Efficient Programs

     According to Federal Government guidance, including the Government
     Accountability Office‟s “Standards for Internal Control in the Federal
     Government,” a program‟s efficiency is dependent on (1) clearly
     delineated roles and responsibilities of offices and individuals involved to
     avoid confusion and ensure that people understand their roles and
     responsibilities, (2) guidance documents to establish management
     expectations and ensure that all staff involved understand their roles, (3)
     training to ensure that employees have the skills needed to perform their
     work, and (4) data that is organized to facilitate use by staff and managers
     for decisionmaking.

     Designator Lists Are Inadequate

     NRC does not have accurate and complete records on the universe of SGI
     designators. OIG interviewed 46 NRC employees who were listed on the
     certified SGI designator list. Of the 46 interviewed, 16 (35 percent) did not
     know they were on the SGI designator list. Furthermore, 21 individuals
     (46 percent) have never designated SGI. Several employees had moved
     offices, changed job functions, or no longer needed to maintain their
     status as a SGI designator.

     One designator said it was embarrassing that she had no idea she had
     been on the SGI designator list for the past 3 years. She said she was
     only with NRC for 6 weeks before apparently taking the online SGI
     designator training course, and was incredulous that she could be
     considered an SGI designator. Another individual said she had no idea
     how she became an SGI designator. This individual took several NRC
     online training classes when she was hired at NRC and assumes that the


                                   16
                                   Audit of NRC‟s Protection of Safeguards Information



SGI designator training course was one of these classes. However, she
stated that while she is an NRC employee, she currently does not work in
any NRC offices as she is a full-time student. Another employee said
there should be some type of yearly designator list scrub, or ongoing
competency test, as there was no way he could designate SGI even
though he was on the SGI designator list.

After OIG began contacting certified designators, some of these
individuals began contacting DSO to be removed from the SGI designator
list. At this point, NSIR became aware of a misalignment between the
certified designator list maintained by NSIR and the SLES designator role
list maintained by OIS. NSIR performed a review of all individuals with
SLES designator access and discovered there were 137 SLES
designators who were not on the certified SGI designator list. At the
request of NSIR, OIS then reviewed each of these 137 individuals to
determine if they had the proper training documentation to merit their
SLES designator status. Upon completion of the review, OIS was able to
provide the proper training documentation for only 17 of the 137
individuals who had the SLES designator status. As a result, OIS
changed the SLES status from “designator” to “reader” for the 120 users
who lacked sufficient paperwork, and informed the individuals that to
regain SLES designator status, they would have to provide sufficient
documentation supporting that the prerequisite SGI training requirements
had been met.

Lack of a Business Process Over the SGI Designator Role

SGI designator lists are inaccurate because NRC lacks adequate
business processes over the SGI designator role. Specifically, there is no
coordination or communication between OIS and NSIR, and there are no
formal procedures in place to ensure only proper individuals are
considered SGI designators.

NSIR and OIS lack coordination and communication regarding the SGI
designator role. In granting individuals SLES designator access, OIS has
not communicated with NSIR to verify that these individuals are on the
certified designator list. There is also no cross-office communication
between NSIR and OIS to ensure that the two designator lists match.
Furthermore, OIG found that NSIR lacked a specific point of contact within
OIS with regard to SLES.



                             17
                                    Audit of NRC‟s Protection of Safeguards Information



There is also a lack of formal procedures related to the SGI designator
role. While there is a clear procedure in place to grant the SGI designator
role, there is no process to ensure that the list is properly maintained. The
NSIR group responsible for maintaining the certified designator list takes
an informal approach to collecting information about individuals who no
longer need to be on the list. For example, NSIR staff relies upon their
own familiarity with SGI designators, reading the retirement
announcements posted on NRC‟s Web site, and periodically checking the
staff directory to determine if the listed designators are still NRC
employees.

Furthermore, there is no established procedure to contact employees to
determine if they need to maintain their role as a certified SGI designator.
OIS does not have any formal procedures to remove SGI designator
access from individuals or determine if the users still need to maintain this
level of access to the SLES system. Additionally, once an SGI designator
is certified, there is no required refresher training to ensure that
designators maintain familiarity with their roles and responsibilities.

There are no formal business processes regarding the SGI designator role
because management was not aware of this issue. However, since OIG
conveyed these issues to NRC during the course of this audit, NSIR and
OIS have begun to work together to resolve the issues. In December
2011, OIS and NSIR held a meeting to discuss possible solutions and
better controls over the SGI designator role. One resolution from the
meeting was to implement a policy that prior to granting any SLES
designator access, OIS will first contact NSIR to ensure this individual is a
certified SGI designator.

A lack of accurate SGI designator lists could prevent NRC from
communicating policy or procedural changes to those who have the SGI
designator responsibility, as well as ensuring there is adequate SGI
designator coverage throughout the program offices. Furthermore, by
requiring periodic refresher training, individuals who want to remain
designators would proactively maintain their certifications and familiarize
themselves with the SGI policies. Those who are no longer interested in
being designators could communicate this by not renewing their
certification.




                              18
                                  Audit of NRC‟s Protection of Safeguards Information



Recommendations

OIG recommends that the Executive Director for Operations:

7. Develop and implement formal business processes for certified SGI
   designators and the SLES designator role. These procedures should
   include periodically verifying:
          The need for individuals to maintain designator role.
          A match between the certified designator list and the SLES
          designator user list.

8. Develop and require annual refresher training for the SGI Designator
   role.




                            19
                                              Audit of NRC‟s Protection of Safeguards Information



IV.   Consolidated List of Recommendations

          OIG recommends that the Executive Director for Operations:

          1. Develop a structured reporting process that includes:
                   One point of contact to receive reports of all SGI releases.
                   A numbering system to track the number of releases reported in
                   a consistent manner.
                   A system to report information on releases from the central point
                   of contact to the responsible program offices.
                   A system to trend releases and to make any needed
                   programmatic changes.

          2. Update the affected MDs (3.4, 7.4, 12.1, 12.5, and 12.7) to provide
             consistent guidance on the new reporting structure outlined in
             recommendation 1.

          3. Develop and implement interim guidance to communicate the
             structured reporting process to NRC staff.

          4. Update the annual online security information training to reflect the
             reporting requirements for SGI releases.

          5. Update MD 12.7 to include detailed guidance on granting “outsiders”
             access to SGI.

          6. Develop and issue interim guidance covering how to grant “outsiders”
             access to SGI.

          7. Develop and implement formal business processes for certified
             designators and the SLES designator role. These procedures should
             include periodically verifying:
                    The need for individuals to maintain designator role.
                    A match between the certified designator list and the SLES
                    designator user list.

          8. Develop and require annual refresher training for the SGI Designator
             role.




                                        20
                                           Audit of NRC‟s Protection of Safeguards Information



V.   AGENCY COMMENTS

        At an exit conference on March 28, 2012, agency management stated
        their general agreement with the findings and recommendations in this
        report. Agency management also provided supplemental information that
        has been incorporated into this report as appropriate. As a result, the
        agency opted not to provide formal comments for inclusion in this report.




                                     21
                                        Audit of NRC‟s Protection of Safeguards Information


                                                                                Appendix
OBJECTIVE, SCOPE, AND METHODOLOGY

    OBJECTIVE

    The audit objective was to assess if NRC adequately ensures the
    protection of SGI.

    SCOPE

    The audit focused on reviewing the policies and procedures currently in
    place to protect SGI. We conducted this performance audit at NRC
    headquarters from September 2011 through January 2012. Internal
    controls related to the audit objective were reviewed and analyzed.
    Throughout the audit, auditors were aware of the possibility or existence of
    fraud, waste, or misuse in the program.

    METHODOLOGY

    The audit team reviewed relevant criteria, including the Code of Federal
    Regulations, Title 10, Part 73, Section 22, “Protection of Safeguards
    Information: Specific Requirements”; the Atomic Energy Act of 1954, as
    Amended, Section 147, “Safeguards Information”; Management Directive
    12.7, “NRC Safeguards Information Security Program”; Management
    Directive 12.5, “NRC Automated Information Security Program”;
    Management Directive 12.2, “NRC Classified Information Security
    Program”; Management Directive 12.1, “NRC Facility Security Program”;
    DG-SGI-1, “Designation Guide for Safeguards Information, Criteria and
    Guidance”; and SGI Inspection Procedures 71130.06, 81810, and 87135.
    OIG auditors also reviewed the previous NRC OIG audit report, OIG-04-A-
    04, “Audit of NRC‟s Protection of Safeguards Information.”

    Auditors reviewed all three modules of the SGI designator training course,
    as well as the Annual Information Security Awareness Course.

    At NRC headquarters, in Rockville, Maryland, auditors interviewed NSIR,
    ADM, Office of the General Counsel, CSO, OIS, and Office of International
    Programs staff and/or management to gain an understanding of their roles
    and responsibilities related to the SGI program. Auditors conducted




                                 22
                                    Audit of NRC‟s Protection of Safeguards Information



telephone interviews with 46 NRC staff, at headquarters and the four
regional offices, who were on the SGI designator list.

We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

The audit work was conducted by Beth Serepca, Team Leader; Rebecca
Underhill, Audit Manager; Larry Vaught, Senior Auditor; and Michael Blair,
Management Analyst.




                             23
